Review of Board Casehandling Timeliness, Report No. OIG-AMR-26-00-02
Review of Board Casehandling Timeliness Report No. OIG-AMR-26-00-02
Inspector General Review
Background
Objectives,
Scope, and Methodology
Findings
and Recommendations
Timeliness
Board
Members and Staff
Partnership
Committee
Database
Accuracy
Audit
Report Follow-up
Recommendations
Inspector General
National Labor
Relations Board
Washington, DC 20570
March 31, 2000
I hereby submit a Review
of Board Casehandling Timeliness, Report No. OIG-AMR-26-00-02. We
reviewed only unfair labor practice cases appealed to the National Labor
Relations Board for a decision. We did not review representation case
appeals or other case-related matters processed by the Board. Our
objectives were to review controls over case handling, the accuracy of the
database system, and the timeliness of Board decisions.
Neither statutory nor
regulatory standards exist for the time considered acceptable for an
unfair labor practice case to be at the Board. An Agency policy and an
unofficial standard that established time targets were used to monitor
casehandling timeliness. An Agency policy to promote timeliness of case
processing was not followed.
In 1991 the Board
established unofficial time standards that set six months as the length of
time a case should be at each of three decision stages and two years as
the outside limit for a case to be at the Board. Over a ten-year period,
some cases always exceeded these time standards. The Board mostly achieved
a performance goal established for Fiscal Year (FY) 1999 to issue the
oldest cases, with the intent that the unofficial and policy time
standards would be achieved in future years.
Board Member turnover was
the factor most often identified as having a significant impact on the
timeliness of case processing. Staff reductions were also frequently cited
as a reason for an increase in pending cases and the median days to
process cases.
In FY 1999, the Board
formed a Streamlining Partnership Committee to review the case processing
system. The Committee issued a report with multiple recommendations in
February 1999. The Board agreed with a majority of the recommendations,
and had implemented a few.
Board Members varied from
stating that the casehandling system is not the problem, to that the
system needs to be totally revamped but no one is willing to abandon the
current system. The Board Members all agreed that sufficient information
was available to manage the caseload. Although no system is going to be
perfect for all situations, we found this one provided adequate
information and flexibility.
Multiple options for
expediting a case are currently available to Board Members. These include
establishing case priorities, scheduling Board meetings, redirecting staff
assignments/duties, requesting that a case be reassigned to another Board
Member, foregoing a dissenting or separate opinion, or limiting the length
of decisions. The Board Members individually and as a group must assess
each situation and determine what is necessary to ensure timely action on
cases.
The Office of Executive
Secretary maintained an electronic database of cases at the Board. The
system generated reports used to manage cases and collected and compiled
historical data for external reporting. We evaluated the adequacy of the
system's management controls and accuracy of the data. We found that key
elements in the database were accurate, with few exceptions. However,
system edits were not in place to prevent the system's acceptance of
illogical data.
Recommendations addressing
these findings can be found on page 12 of this report.
An exit conference was
held on February 22, 2000, with the Board Members, Executive Secretary,
and Chief Counsel to the Chairman. The participants agreed that the
statistical data in the report was accurate, but had significant
objections that the data does not present a complete picture of the
Board's performance over the past two years. The objections included,
inter alia:
As part of the
Agency's Strategic Plan, the Board established a performance goal
for FY 1999 to issue all cases (87) that would have been pending
more than three years at the end of the fiscal year. These oldest
cases often involved difficult and complex issues that prior Boards
did not resolve. The Board anticipated that concentrating on the
oldest cases at the expense of more recent cases would result in an
increased median age of issued cases. The Board issued 74 of the 87
cases, with a resultant increase in the median age of issued cases
from 239 to 387 days.
The report only
addressed unfair labor practice cases. Representation cases, that
are a significant portion of the Board's workload and were addressed
in the 1991 General Accounting Office audit report on casehandling,
were not included in the scope. Representation cases were also the
focus of a performance goal for FY 1999 to issue the oldest cases.
In addition, Board Members have many other case-related and
administrative duties and responsibilities that must be accomplished
concurrently with issuing cases.
Board Members reaffirmed
Agency policy standards of four, five, and four weeks respectively for the
three stages of case processing, and an unofficial standard with a overall
maximum of two years to issue a decision. As reflected in the current
revision of the Strategic Plan, the Agency is concentrating on issuing all
cases within maximum time goals and decreasing the emphasis on median
times as a measurement.
This report was not
intended to detract from the current Board's efforts to reduce the pending
caseload, particularly the oldest cases. The Board's accomplishment in
issuing the oldest cases is commendable, but does not negate the fact that
many cases still exceed Agency policy and unofficial standards in every
stage and overall. The Board will most likely continue to experience
turnover and vacancies, and Board Members need to adjust how they handle
cases in order to meet timeliness standards. The Board's accomplishments
in FY 1999 support our finding that the casehandling process
has the flexibility to allow different solutions to be applied to the
specific circumstances of each case. Further, the difficulties encountered
indicated a systemic solution can not be dictated by policy.
The Executive Secretary
submitted written comments on the draft report. He agreed with all of our
recommendations and we accepted his response. The Executive Secretary's
comments are presented in their entirety as an appendix to this report.
Jane E. Altenhofen
Inspector General
Background
The National Labor
Relations Board (NLRB or Agency) administers the principal labor-relations
law of the United States, the National Labor Relations Act of 1935 (Act),
as amended. The Act is generally applied to all enterprises engaged in
interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroads and the
airline industries. The General Counsel is responsible for the issuance
and prosecution of formal complaints in cases leading to Board decisions.
The five-member Board primarily acts as a quasi-judicial body in deciding
cases on formal records.
After an unfair labor
practice (ULP) charge is filed, a case is opened and investigated by an
agent in a Regional Office. If the investigation determines that a
violation of the Act did not occur the case is dismissed by the Regional
Director. If the case is deemed meritorious, the Regional Director issues
a complaint. Throughout the life of a case the goal is to have the parties
settle the case without a hearing. If the parties cannot reach agreement,
the Regional Office prosecutes the case before an administrative law judge
(ALJ) who issues a decision. Within 28 days, or longer if an extension is
granted, parties may appeal ALJ decisions by filing an exception with the
Board.
The Act provides for five
three-member panels, with each Board Member acting as a head of one panel.
Cases appealed to the Board are assigned to a panel by the Executive
Secretary. Assignments are made roughly in the order in which cases are
received but take into account efforts to even out workload assignments,
whether the parties or the case have been subject to previous Board
procedures, and staff development needs. Cases that present novel
questions of law or issues on which the Board is divided are often
referred to the full Board. Each Board Member has a professional staff to
assist in processing cases. Board decisions may be appealed, other than by
the General Counsel, to the U.S. Courts of Appeals and the Supreme Court.
The Executive Secretary is
the chief administrative and judicial management officer of the Board. In
addition to assigning cases to the Board for review, the Office of the
Executive Secretary (OES) maintains control records on all cases before
the Board and records all correspondence between parties to the case and
the Board.
Over 30,000 ULP charges
were filed with the Agency in Fiscal Year (FY) 1998 (the latest period
available). Historically, only a very small percentage of the resulting
cases required Board decisions. In FY 1998, the Board issued 426 decisions
that primarily consisted of contested ALJ decisions (219), and motions for
summary judgement (158).
OBJECTIVES,
SCOPE, AND METHODOLOGY
Our objectives were to
review controls over case handling, the accuracy of the database system,
and the timeliness of Board decisions. We followed up on Board actions
taken in response to a General Accounting Office (GAO) report titled National
Labor Relations Board, Actions Needed to Improve Case-Processing Time at
Headquarters (GAO/HRD-91-29), issued in January 1991. We also assessed
recent Board efforts to address timeliness of casehandling.
We reviewed applicable
laws, regulations, and Agency policies and procedures. Guidance applicable
to the timeliness of case processing was set forth in internal memorandum
and the Guide for Staff Counsel of the NLRB (Staff Counsel Guide). We
interviewed Board Members and Agency officials, primarily in OES and the
Office of the Solicitor, to identify and gain an understanding of ULP
casehandling.
This report addressed
cases involving Board decisions of contested ALJ decisions that were
primarily prepared by the Board Members' staff. Motions for summary
judgement were usually processed by the Solicitor's Office and therefore
not included. Representation cases, which comprise a significant portion
of the Board's workload (263 cases issued in FY 1999), were not included
in our analysis. Unless otherwise specified, references to cases in this
report pertain only to contested ALJ decisions.
We reviewed the timeliness
of cases at the Board after September 30, 1989, the date through which the
GAO review covered all cases, through September 30, 1999. A sample of the
OES information system was selected from ULP cases that were decided by
the Board in FY 1997 or FY 1998, or were pending as of May 31, 1998.
We evaluated the accuracy
of key elements in the OES database using a combination of computer
assisted auditing techniques (CAAT) and detailed testing. We used a
statistically valid random sample to select cases for review and traced
information to documentary evidence. Key elements consisted of date
assigned to staff counsel, date of initial action, date draft decision
circulated, and date of issuance. CAAT procedures were applied to provide
information regarding the accuracy of the data and to identify potential
internal control vulnerabilities.
We conducted this review
between September 1998 and January 2000 at Board Headquarters. The review
was performed in accordance with generally accepted Government auditing
standards.
FINDINGS
AND RECOMMENDATIONS
TIMELINESS
Standards
Neither statutory nor
regulatory standards exist for the time considered acceptable for a case
to be at the Board. An Agency policy and an unofficial standard that
established time targets for cases were reportedly used to monitor
casehandling timeliness but this did not prevent cases from becoming
overdue. An Agency policy to promote timeliness of case processing was not
followed.
Case processing at the
Board is broken down into three stages described on pages 5 and 6 of this
report. Time targets for each stage were established for normal and
routine cases in Agency policy, an unofficial standard established maximum
times for a case by stage and overall, and performance goals were adopted
as follows.
Time Standards
Policy - The
Staff Counsel Guide, revised in September 1994, identified three
stages of case processing and set time targets for each stage.
Generally, the time target for each stage of case processing was
four weeks, although the Board agreed to increase the second stage
to five weeks in April 1999. This was an increase from the prior
targets that were, generally, three weeks at each stage. OES
prepared reports to identify cases in stages I and II that exceed
these time standards to monitor overdue cases.
Unofficial Time
Standards - The Board's
response to the January 1991 GAO report set forth time standards for
processing cases called the 6-6-6 System. This standard set the total
length of time a case should be at each decision stage at six months
and the outside limit for a case to be at the Board at two years. As
described on pages 11 and 12 of this report, the 6-6-6 System was not
fully implemented.
Performance Goals - The Agency's Strategic Plan adopted in FY
1997 established multiple performance measures for cases. The goals
were to issue all unfair labor practice cases pending at the Board for
more than three years in FY 1999, cases pending more than 30 months in
FY 2000, and cases pending more than 24 months in FY 2001 and
thereafter.
The Agency adopted a
policy to promote timeliness of case processing. OES Memorandum 76-1 (OES
76-1), issued January 13, 1976, was intended to expedite the issuance of
cases that were awaiting a dissent or a separate opinion. The policy
provides that when established timeframes are exceeded, the Board Member
responsible for the delay is replaced in panel cases, or the case is
issued without the dissent or separate opinion in full Board cases.
This policy was included
in the Staff Counsel Guide, but was never fully implemented. The Report of
the Streamlining Committee, issued in February 1999, recommended that the
Board consider implementing OES 76-1 with respect to full Board cases.
Most Board Members stated
this policy was flawed because it provides unlimited time to write a
majority decision and have it approved, yet limited the time to issue
dissenting or separate opinions.
Performance
Over a ten-year period,
some cases always exceeded the established time standards. The Board
mostly achieved the performance goal for FY 1999 to issue the oldest
cases, with the intent that the standards could be achieved in future
years.
The graphs shown on the
following pages illustrate pending cases at year-end stayed below 300
until FY 1997, and then increased over a two-year period to 473 pending
cases as of September 30, 1999. Very few cases were pending over two years
in the early 1990s, compared to 87 such cases as of September 30, 1999. In
addition, the median number of days for case processing by the Board
reached a 387-day median (median is the middle value, above and below
which lie an equal number of values).
The graphs show a similar
pattern by stage. On an annual basis, the Board occasionally came close to
meeting the six-month maximum guideline (rather than the four-week
standard), but generally 10 to 20 percent of the cases exceeded the time
standards for stages II and III. The median days for stage I gradually
increased over time, while stages II and III fluctuated in response to
fewer decisions and/or older cases.
Cases Pending are contested ALJ decisions appealed to the Board
for which a decision has not been issued.
Total Case Processing is from the time a case is first assigned until
clearance of a Board decision.
Stage I is from the time a case is assigned or reassigned
until the date on which the initial action is taken. An initial action is
usually when Board Members' staff meet to discuss the case and cast
tentative votes, referred to as a subpanel meeting. A written decision
adopting the ALJ decision may be prepared in lieu of a subpanel.
Stage II is from the end of Stage I to circulation
of the draft decision to Board Members for approval. A staff attorney is
responsible for writing the draft decision that must be cleared by the
supervisor, chief counsel, and the Board Member.
Stage III is from the end of Stage II to clearance of
the Board's decision. Afterwards, a final copy reflecting agreed upon
Board Member changes is prepared for processing and issuance.
During the period
reviewed, fewer cases were appealed to the Board. The Board received more
than 20 percent fewer cases in FYs 1998 and 1999 than in FY 1992, the peak
year in our review, although the average size of the record transcripts in
these cases increased by about 25 percent.
Thirty-three cases issued
by the Board in FY 1999 were more than two years old by the middle of
November 1997, when four of the five current Board Members began serving
together. One of the Agency's FY 1999 performance goals under the
Government Performance and Results Act was to issue all unfair labor
practice cases pending at the Board for more than three years. The
Executive Secretary said concentrating the Board's efforts on cases that
have been at the Board longer than three years, at the expense of more
recent cases, increased the median number of days to issue a case.
BOARD MEMBERS
AND STAFF
Member Turnover
Board Member turnover was
the factor most often identified as having a significant impact on the
timeliness of case processing. Generally, case-processing time increased
during periods when there were vacancies or several new Board Members were
appointed, and decreased when the Board was stable, as illustrated in
Exhibits 1 and 2.
The Board consists of five
Members, appointed by the President, with the advice and consent of the
Senate. Board Members serve staggered terms of five years each. Members
appointed to fill vacancies are appointed only for the unexpired term of
the Member whom he or she shall succeed. By design, one Board Member would
be reappointed or replaced each year. This system was designed to provide
continuity and stability to an entity that needs to work collegially to
accomplish its mission.
Officials noted that the
Board's casehandling process is better suited to stable membership, in
which Board Members and staff know each other, their colleagues, the
process, and colleagues' positions on the issues. Until the early 1980s,
it was not uncommon for Board Members to serve more than one consecutive
term. This type of tenure no longer exists, which can be seen in the
swearing in of four new Board Members, one previously serving under a
recess appointment, in November 1997.
New Board Members need
time, estimated at six months to a year, to become familiar with the
Board's decision-making process, develop a rapport with staff, gain enough
experience to participate in the most difficult cases awaiting decision,
and learn the details of the caseload they inherit. As a result of
turnover, sometimes cases are returned to an earlier stage in the process.
Recess appointments affect
timeliness because the appointments are made by the President when
Congress is not in session and expire at the end of the next session,
effectively limiting the appointment to less than two years at the most.
During one period when the majority of Board Members were recess
appointments, the Board did not decide precedent reversing cases as a
matter of policy even though authorized to do so.
Vacancies reduce the
number of Board Members able to handle cases and add to instability
because new Board Members are appointed to complete a pre-established
term, not a full five-year term. For example, a Board Member was sworn in
on November 14, 1997, to complete the 5-year term ending December 16,
1999, serving only two years unless re-appointed.
The Board was relatively
stable before 1980; Board Members commonly completed their terms and were
reappointed several times. The early 1980s experienced a significant
increase in vacancies and turnover in Board Members, followed by a
relatively stable period during the late 1980s and early 1990s.
The middle to late 1990s
was a period of high turnover, extended vacancies and multiple recess
appointments. During FYs 1992, 1993, and 1997 no new Board Members were
appointed. Three new Board Members were appointed in FY 1994. Four Board
Members, three with no prior experience as Board Members, were appointed
in November 1997. The Agency operated with three or fewer Board Members
for close to nine months on two different occasions in the 1990s. Between
February 28, 1997 and November 14, 1997, the Board operated with three
members, two of whom were serving under recess appointments.
Vacancies sometimes
present special problems. For two months (November 27, 1993, - January 23,
1994), the Board had only two members. This did not constitute a quorum,
and no decisions could be issued. The Board also operated without a
Chairman for three months (August 27 - December 4, 1998).
In November 1997, four new
Board Members were sworn in, including one Board Member who had been
serving under a recess appointment since January 1996. The Board was
completed in December 1998, when the current Chairman was appointed; he
had served previously as a Board Member multiple times and as Executive
Secretary for 20 years. Except for a period of approximately three months,
the Board has consisted of five Members since November 1997.
GAO recognized the impact
that Board Member turnover and vacancies could have on timeliness, and
suggested that Congress amend the Act to provide for more continuity of
Members. Provisions similar to those in some other agencies could allow
Board Members whose terms are ending to either stay until a replacement
has been confirmed, or continue for a limited period. Congress did not
amend the Act and delays in the appointment process continue.
Staff
Reductions
Staff reductions were
another reason cited for an increase in pending cases and the median days
to process cases. Positions declined steadily from FY 1990 to FY 1997.
Board staff counsel are
responsible for reviewing the case record, researching the law,
representing Board Members at meetings, and drafting decisions. Staff
reductions would affect timeliness if the decrease outpaced the decreased
workload from fewer incoming cases.
Board staffs decreased in size from 121
full time equivalents (FTE) at the beginning of FY 1990 to 91 FTE in FY
1997. FTE remained at 91 FTE for both FYs 1998 and 1999. The FTE ceiling
for FY 2000 is 104.5.
PARTNERSHIP
COMMITTEE
Early in FY 1999 the
Board-side Streamlining Partnership Committee was formed to review the
Board's case processing system and reach consensus on ways to change the
system to issue cases more expeditiously. The committee included five
representatives from the NLRB Professional Association, one supervisory
attorney, one deputy chief counsel, and the Executive Secretary. The
Committee met weekly over a three-month period and issued a report in
February 1999.
On April 13, 1999, the
Board met with the Committee to discuss the report, which contained 41
recommendations. The Board agreed with 33 recommendations and partially
agreed with two recommendations. The Board disagreed with six
recommendations, five of which involved standardized utilization of staff
based on job title. The Board Members wanted to have the managerial
flexibility to evaluate staff strengths and weaknesses in assigning duties
and responsibilities. The Board has not implemented the majority of agreed
upon recommendations.
The Committee report
discussed possible changes throughout the Board's casehandling system.
Recommendations were made to improve morale, experiment with alternative
methods of assigning and managing cases, focus Board Member and staff
efforts on the same cases, and empower employees with sufficient authority
to reach consensus with other Board Members and their staffs.
Board Members varied from
stating that the system is not the problem, to that the system needs to be
totally revamped but no one is willing to abandon the current system. No
system is going to be perfect for all situations. We found this one
provides adequate information and flexibility. The Board Members all
agreed that sufficient information was available to manage the caseload.
The options available indicated that the system provided ample
flexibility.
For example, three
Committee recommendations that have been acted upon include the following.
Once a case has gone
to subpanel, priority should be given to the circulation of a draft
within a realistic time target.
Once a Board Member
has approved a draft, priority should be given to getting the case
out.
If 45 days have
elapsed without any action having been taken in Stage III, the
Executive Secretary should schedule the case for a "45-day
Agenda" meeting attended by Board Members, their chief
counsels, and the originating counsel, supervisor, and deputy chief
counsel.
Multiple other options are
available. These include redirecting staff assignments/duties, requesting
that a case be reassigned to another Board Member, foregoing a dissenting
or separate opinion, or limiting the length of decisions. No one of these
options is going to fit every situation. The Board Members individually
and as a group must assess each situation and determine what is necessary
to ensure timely action on cases.
DATABASE
ACCURACY
Key elements in the OES
database were accurate, with few exceptions. The infrequent occurrence of
illogical dates indicated a lack of internal control techniques, such as
system edits.
Federal standards for
internal control require accurate and timely recording of transactions and
events. Key elements in the OES database were accurate, with few
exceptions, based on detailed testing. From a universe of approximately
1,400 cases, we selected a statistically valid random sample of 78 items.
We verified the four key dates for each case: assigned, initial action,
circulated, and issued. We found ten errors in total. Each element had two
or three errors, representing an acceptable error rate of 2.56 to 3.85
percent.
We also identified
internal control weaknesses that allowed illogical dates to be entered
into the database. Based on a universe of 5,150 cases at the Board between
October 1, 1989 and May 31, 1998, we found the errors listed below.
Three cases had a
date issued before the date assigned.
One case did not
include the date the case was assigned.
Eleven cases did not
have a date of initial action.
Seventeen cases had
a date of initial action before the date the case was assigned.
Thirty-one cases
showed the date circulated before the date of initial action.
One case contained
invalid data in the date circulated field.
Three cases showed
the date the case issued before the date the case circulated.
The frequency of
occurrence of these illogical dates does not indicate that the database
was inaccurate, but identified a lack of internal control techniques, such
as system edits, that should be addressed.
AUDIT REPORT
FOLLOW-UP
GAO report National
Labor Relations Board Action Needed to Improve Case Processing Time at
Headquarters (GAO/HRD-91-29) was issued in January 1991. The report
contained two recommendations for corrective action. One, establish
standards for the total length of time a case should be at the Board and a
time for each decision stage, that when exceeded requires corrective
action. Two, specify the corrective actions that Board Members and staff
should take when those time targets are exceeded. Informal standards were
adopted and corrective action specified, but the process was not fully
implemented.
The Board letter
responding to the GAO report established a 6-6-6 System. This standard set
the total length of time a case should be at each decision stage at six
months and the outside limit for a case to be at the Board at two years.
When time standards are exceeded the procedure calls for directly
involving all Board Members in matters that may be emerging as problem
cases requiring special attention.
OES sporadically prepared
a 6-6-6 Report to track cases, but did not refer all applicable cases to a
full Board agenda. Some cases over two years old were referred to
"Old Dog Agendas" where Board Members, Chief Counsels, and the
Executive Secretary would discuss what was needed to issue these cases.
OES last produced 6-6-6 Reports in February 1996, because the information
was not used to establish case priorities. Also, much of the information
on cases exceeding the time targets was available in other reports.
The effect of the 6-6-6
System on the timeliness of case processing by the Board is uncertain, but
performance declined after the reports were no longer prepared.
RECOMMENDATIONS
We recommend that the
Executive Secretary:
Revise Board policy
to include current time standards for case processing;
Cancel unused
policies designed to promote timeliness, and implement
recommendations made by the Committee; and
Develop appropriate
edits for the electronic database.
APPENDIX
United States Government
National Labor Relations
Board
1099 14th Street NW
Washington DC 20570
March 28, 2000
TO: Jane E. Altenhofen
Inspector General
FROM: John J. Toner,
Executive Secretary
SUBJECT: Draft Report "Review of
Board Casehandling Timeliness"
This is in response to your Draft Report
"Review of Board Casehandling Timeliness." The Board has no
comments, and adopts the three recommendations which the Executive
Secretary has been directed to implement as soon as practically possible.
J. J. T.
cc: The Board